Audit Report




OIG-10-028
Management Letter for Fiscal Year 2009 Audit of the Exchange
Stabilization Fund’s Financial Statements


December 22, 2009




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            December 22, 2009


            MEMORANDUM FOR MARK SOBEL
                           ACTING ASSISTANT SECRETARY FOR INTERNATIONAL
                           AFFAIRS

            FROM:                 Michael Fitzgerald
                                  Director, Financial Audits

            SUBJECT:              Management Letter for Fiscal Year 2009 Audit of the
                                  Exchange Stabilization Fund’s Financial Statements

            I am pleased to transmit the attached management letter in connection with the
            audit of the Exchange Stabilization Fund’s (ESF) Fiscal Year 2009 financial
            statements. Under a contract monitored by the Office of Inspector General, KPMG
            LLP, an independent certified public accounting firm, performed an audit of the
            ESF’s financial statements as of September 30, 2009, and for the year then ended.
            The contract required that the audit be performed in accordance with generally
            accepted government auditing standards; applicable provisions of Office of
            Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements, as amended; and the GAO/PCIE Financial Audit Manual.

            As part of its audit, KPMG LLP issued and is responsible for the accompanying
            management letter that discusses a matter involving internal control over financial
            reporting that was identified during the audit, but was not required to be included
            in the auditors’ reports.

            In connection with the contract, we reviewed KPMG LLP’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG LLP did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789, or a
            member of your staff may contact Catherine Yi, Manager, Financial Audits at
            (202) 927-5591.

            Attachment
EXCHANGE STABILIZATION FUND
      FISCAL YEAR 2009
       Management Letter

       December 11, 2009
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036


December 11, 2009

Inspector General
U.S. Department of the Treasury
Washington D.C.

We have audited the statements of financial position of the Exchange Stabilization Fund (ESF) as of
September 30, 2009, and the related statements of income and comprehensive income and retained
earnings, and statements of cash flows (hereinafter referred to as financial statements) for the year then
ended, and have issued our report thereon dated December 11, 2009. In planning and performing our audit
of the financial statements of the ESF, in accordance with auditing standards generally accepted in the
United States of America, we considered ESF’s internal control over financial reporting (internal control)
as a basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements but not for the purpose of expressing an opinion on the effectiveness of ESF’s internal control.
Accordingly, we do not express an opinion on the effectiveness of ESF’s internal control.
During our audit, we noted a matter involving internal control that is presented for your consideration. This
comment and the related recommendations which have been discussed with the appropriate members of
management, are intended to improve internal controls and are summarized as follows.


Monitoring of Foreign Currency Transactions Activities

A designated fiscal agent conducts ESF’s foreign currency operations on its behalf. Foreign currency
functions conducted by the fiscal agent include management of ESF’s foreign currency portfolio in
accordance with treasury stipulated guidelines, execution of purchases/sales of foreign currency in the
market, purchases and sales of foreign currency in non-market transactions, and other foreign currency
transactions as directed by the Secretary of the Treasury. In addition, the fiscal agent is responsible for the
monthly accounting and reporting to the ESF of foreign currency activities. The fiscal agent also provides
the data that supports various ESF financial statement disclosures.

While there appears to be regular interaction between the fiscal agent’s employees that manage the ESF
investment funds and senior ESF management, we noted that there was no formal documentation in the
form of minutes or summaries of these communications/meetings and on-site review visits that would
specify the procedures conducted, items discussed, documentation inspected, follow up items, or issues
identified, etc.

The Federal Managers’ Financial Integrity Act (FMFIA) of 1982 requires internal accounting and
administrative controls of each executive agency to be established in accordance with standards prescribed
by the Comptroller General. The Government Accountability Office’s (GAO) Standards for Internal
Control in the Federal Government defines internal control as an integral component of an organization’s
management that provides reasonable assurance that the following objectives are being achieved:
effectiveness and efficiency of operations, reliability of financial reporting, and compliance with applicable
laws and regulations. Reliable financial reporting requires sufficient human resources, with the appropriate
skills and abilities, coupled with an organizational structure with clearly defined responsibilities and
effective internal controls. FMFIA further states that “transactions should be promptly recorded, properly
classified and accounted for in order to prepare timely accounts and reliable financial and other reports.
The documentation for transactions, management controls, and other significant events must be clear and
readily available for examination.”



                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
Implementation of appropriate processes/procedures/controls over investment transactions/balances
reported by the fiscal agent as well as documentation thereof is needed to enhance and formalize the
control structures and to minimize the potential of any undetected errors, fraud, and mismanagement of
funds, all of which could ultimately lead to financial statement misstatements.

Recommendations

We recommend that the ESF’s Chief Executive Officer and Chief Financial Officer require: 1)
documentation of key communications with the fiscal agent, along with a requirement to formally
distribute such documentation to all applicable ESF accounting personnel so as to form a baseline of the
accounting expectations and/or to early identify any accounting issues and 2) more robust documentation
of the fiscal agent on-site review to include procedures conducted, items discussed, and documentation
inspected to be clearly documented in the site visit report.


                                          *****************

ESF’s written response to our comment and recommendations is presented in Exhibit I and has not been
subjected to the auditing procedures applied in the audit of the ESF financial statements, and accordingly,
we express no opinion on it.

Our audit procedures are designed primarily to enable us to form an opinion on the financial statements,
and, therefore, may not bring to light all weaknesses in policies or procedures that may exist. We aim,
however, to use the knowledge of the ESF gained during our work to make comments and suggestions that
we believe will be useful to you.

We appreciate the courteous and professional assistance that ESF personnel extended to us during our
audit. We would be pleased to discuss this comment and recommendations with you at any time.

This communication is intended solely for the information and use of the management of the ESF, the
Department of the Treasury’s Office of Inspector General, the Office of Management and Budget, the
Government Accountability Office, and Congress and is not intended to be and should not be used by
anyone other than these specified parties.

Very truly yours
                                                                                                    Exhibit I



Management’s Response

Management concurs with the recommendation. The ESF program staff maintains complete and open
communication with ESF accounting personnel through documented e-mails and notifications of any
forthcoming events that will have an effect on ESF’s financial reporting. Additionally, ESF will plan its
annual site visit of the fiscal agent in advance and prepare a detailed agenda that ensures all topical issues
are addressed. Afterwards, we will document topics of discussion and maintain minutes of the site visit
that will become part of ESF’s official record. In addition to documentation, this effort will assist in
focusing our efforts on opportunities for improvement in the current or future years.
